HHS/OIG-Audit--"Review of Medicare Home Health Services in California, Illinois, New York, and Texas, (A-04-99-01194)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Home Health Services in California, Illinois, New York, and Texas," (A-04-99-01194)
November 1, 1999
Complete
Text of Report is available in PDF format (2.28 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that erroneous payments made to home health agencies (HHA) in California, Illinois, New York,
and Texas have been significantly reduced in comparison to the payment error rate found in our previous review, but remain
way too high. Our current review estimates 19 percent of the services in the four States during the 9-month period ending
September 30, 1998 were improper or highly questionable and did not meet Medicare reimbursement requirements. This compares
to our previous audit in which we estimated 40 percent of the services in the same four States during the 15 month period
ending March 31, 1996 did not meet Medicare reimbursement requirements. For our current review, we estimate the intermediaries
approved unallowable or highly questionable claims with charges totaling about $675.4 million out of the four State universe
of $2.3 billion in charges. Recommendations call for the Health Care Financing Administration to: (1) revise Medicare regulations
to require the certifying physician to examine the patient before ordering home health services and see the patient at
least once every 60 days; (2) consider the 19 percent rate of improper or highly questionable services as a factor before
making any changes to the current HHA payments; (3) consider making an equitable adjustment to the proposed HHA prospective
payment system rates or update factors to take into account the improper and highly questionable payments that were included
in the rate calculations; and (4) instruct the intermediaries to collect the overpayments identified in our sample.